Case: 20-1578

Document: 16

Page: 1

Filed: 08/05/2020

NOTE: This disposition is nonprecedential.

fHniteb States Court of Appeals
for tfje jfeberal Circuit
WALTER L. ALLEN,
Plaintiff-Appellant
v.
UNITED STATES,
Defendant-Appellee
2020-1578
Appeal from the United States Court of Federal Claims
in No. l:19-cv-01304-VJW, Senior Judge Victor J. Wolski.
Decided: August 5, 2020
Walter L. Allen, Brooklyn* NY, pro se.
SOSUN Bae, Commercial Litigation Branch, Civil Divi­
sion, United States Department of Justice, Washington,
DC, for defendant-appellee. Also represented by Ethan P.
Davis, Tara K. Hogan, Robert Edward Kirschman, Jr.
Before O’MALLEY, BRYSON, and REYNA, Circuit Judges.

Case: 20-1578

Document: 16

Page: 2

2

Filed: 08/05/2020

ALLEN v. UNITED STATES

Per Curiam.
The Court of Federal Claims (“Claims Court”) has ju­
risdiction to render judgment “upon any claim against the
United States founded either upon the Constitution, or any
Act of Congress or any regulation of an executive depart­
ment, or upon any express or implied contract with the
United States, or for liquidated or unliquidated damages in
cases not sounding in tort.” 28 U.S.C. § 1491(a)(1). Absent
from this grant of jurisdiction are claims based on personal
grievances against post office employees. Walter L. Allen
(“Allen”) appeals a decision of the Claims Court dismissing
for lack of subject matter jurisdiction his complaint alleg­
ing such a grievance. Allen v. United States, No. 19-1304C,
2020 WL 975438 (Fed. Cl. Feb. 28, 2020). We affirm.

Background
Allen filed his complaint on August 27, 2019, alleging
that on January 2, 2019, a United States Postal Service
(“USPS”) employee in Brooklyn, New York refused to ac­
cept Allen’s letters for mailing. Allen, 2020 WL 975438,
at *1. The employee was apparently the only worker at the
time and was therefore unable to weigh the letters. J.A. 7.
After a “minor verbal dispute,” Allen took the letters to an­
other post office. Id. Within 30 minutes of the initial inci­
dent, Allen’s mail was accepted by the second post office.
Id. Allen subsequently filed a grievance with USPS head­
quarters, requesting “900 zillion” dollars for this unpleas­
ant interaction. Allen, 2020 WL 975438, at *1. The USPS
apologized to Allen, but did not pay him the requested
amount. Id. Allen then filed a complaint against the
United States in the Claims Court, increasing his mone­
tary demand to “one hundred million zillion dollars.” Id.
He also sought termination of the employee involved in the
incident. Id.
The government filed a motion to dismiss Allen’s com­
plaint for lack of subject matter jurisdiction. Id. Allen did

Case: 20-1578

Document: 16

Page: 3

Filed: 08/05/2020

3

ALLEN v. UNITED STATES

not respond, to the motion. Even after accepting all factual
allegations as true, drawing all reasonable inferences in
the light most favorable to Allen, and liberally construing
Allen’s filings, the Claims Court found that it did not have
subject matter jurisdiction. Allen, 2020 WL 975438, at * 2.
The court dismissed Allen’s complaint pursuant to Rule
12(b)(1) of the Rule of the Court of Federal Claims
(“RCFC”). Id.
Allen timely filed a notice of appeal. Allen also filed
two motions for other relief in June 2020 (ECF Nos. 13 and
14), which we construe as motions to file supplemental
briefing in support of his appeal. We have jurisdiction pur­
suant to 28 U.S.C. § 1295(a)(3).
Discussion
We review de novo a dismissal for lack of subject matter
jurisdiction under RCFC 12(b)(1). Maher v. United States,
314 F.3d 600, 603 (Fed. Cir. 2002). In ruling on a motion
to dismiss for lack of subject matter jurisdiction, the court
must accept all factual allegations in the complaint as true
and construe them in the light most favorable to the non­
moving party. Estes Express Lines v. United States, 739
F.3d 689, 692 (Fed. Cir. 2014). The filings of pro se parties,
moreover, should be liberally construed and held to less
stringent standards than professionally drafted pleadings.
Erickson v. Pardus, 551 U.S. 89, 94 (2007).
The Claims Court derives its jurisdiction from the
Tucker Act, 28 U.S.C. § 1491, which waives sovereign im­
munity for certain monetary claims against the federal
government. In order to establish jurisdiction under the
Tucker Act, the plaintiff must identify a constitutional pro­
vision, federal statute, executive agency regulation, or an
express or implied contract with the United States that cre­
ates a right to money damages. See 28 U.S.C. § 1491(a)(1).
Allen cannot identify any provision of federal law that en­
titles him to monetary damages against the federal govern­
ment stemming from his allegedly unpleasant encounter

Case: 20-1578

' 4

Document: 16

Page: 4

Filed: 08/05/2020

ALLEN v. UNITED STATES

with the postal officer worker or the temporary refusal of
his mail. Nor does Allen claim to have been party to, or in
privity with, an express or implied contract with the
United States.
Few amongst us have been spared the indignity of an
unpleasant encounter with a customer service representa­
tive, government or private. But fewer still would take the
path Allen chose to take here. As the Claims Court has
informed Allen six times over, it is a court of limited subject
matter jurisdiction.1 Allen must identify a statutory or
contractual right under the Tucker Act in order to bring a
case in that court. He has not done so here.2 Accordingly,

1 Allen is no stranger to the Claims Court. In 2019,
Allen filed ten complaints with that court within a threemonth period. Allen u. United States, 145 Fed. Cl. 390,
397-98 (Fed. Cl. 2019) (collecting cases). Allen also ap­
pears to favor seeking damages in amounts such as “900
trillion dollars,” and “one hundred million zillion dollars.”
Id. at 392. The Claims Court has dismissed all ten cases,
at least six for lack of subject matter jurisdiction. Id. at
397—398. Not surprisingly, the Claims Court has imposed
sanctions on Allen, barring him from filing any future com­
plaints without first obtaining leave to file from the Chief
Judge of the court. Id.
2 To the extent AJlen suggests that he has filed a bid
protest case in his complaint, invoking the Claims Court’s
jurisdiction under 28 U.S.C. § 1491(b), that argument is
meritless. Such jurisdiction only arises “in connection with
a procurement or a proposed procurement.” 28 U.S.C.
§ 1491(b). As a procurement pertains to the government’s
“process of acquiring property or services,” this action can­
not be a bid protest. Distributed Sols., Inc. v. United States,
539 F.3d 1340, 1345 (Fed. Cir. 2008).

Case: 20-1578

Document: 16

Page: 5

Filed: 08/05/2020

5

ALLEN v. UNITED STATES

we conclude that the Claims Court correctly determined
that it lacked subject matter jurisdiction.
Conclusion
Because the Claims Court lacked subject matter juris­
diction, we affirm. We dismiss as moot Allen’s June 2020
motions for other relief.
AFFIRMED
Costs
No costs.

Case: 20-1578

Document: 17

Page: 1

Filed: 08/05/2020

®ntteb States Court of Appeals
for tfje jfeberal Circuit
WALTER L. ALLEN,
Plaintiff-Appellant
v.
UNITED STATES,
Defendant-Appellee
2020-1578
Appeal from the United States Court of Federal Claims
in No. l:19-cv-01304-VJW, Senior Judge Victor J. Wolski.
JUDGMENT

THIS Cause having been considered, it is
Ordered and Adjudged:
AFFIRMED

Entered By Order Of The Court
August 5, 2020

Is/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

Case l:19-cv-01304-VJW Document 6 Filed 02/28/20 Page 1 of 3

I
I*
I

M tlje ®mteb States! Court of Jfetieral Claim#
No. 19-1304C
(Filed February 28, 2020)
NOT FOR PUBLICATION
******************
*
*
*
WALTER L. ALLEN,
*
*
Plaintiff,
*
*
V.
*
*
THE UNITED STATES
*
*
Defendant.
*
******************

MEMORANDUM OPINION AND ORDER
WOLSKI, Senior Judge.
Plaintiff, Walter L. Allen, asserts a claim based on an apparently
unsatisfactory interaction with his local United States Postal Service (USPS) office.
The exact nature of this interaction is unclear, but it appears that a USPS employee
refused to accept letters for mailing. Mister Allen requests one hundred “million
zillion” dollars, and the termination of certain USPS employees who were involved
in this incident. The government has moved to dismiss the case for lack of subjectmatter jurisdiction under Rule 12(b)(1) of the Rules of the United States Court of
Federal Claims (RCFC). Plaintiff has not filed a response. For the reasons stated
below, the motion is GRANTED and the complaint is DISMISSED.
I. BACKGROUND
On August 27, 2019, Mr. Allen filed a complaint in this court pro se,
complaining about his treatment at a USPS office in Brooklyn, New York. Compl.
at 1. Apparently, on January 2, 2019, a USPS employee declined to accept letters
for mailing, due to her inability to weigh them at that time because of a lack of
sufficient staffing. Id. Plaintiff argued with her and then took his mail to another
post office, where it was accepted. Id. He followed up with a complaint to the USPS
headquarters and received an apology for his treatment. Id. at 1-2. The USPS,

I

Case l:19-cv-01304-VJW Document 6 Filed 02/28/20 Page 2 of 3

however, declined to pay him the “900 zillion” dollars he sought in that complaint.
See Ex. 1 to Compl. He thus filed a complaint in this court, now seeking one
hundred “million zillion” dollars and the termination of the USPS employees
responsible for his displeasure. Compl. at 1. Defendant has moved to dismiss the
complaint, arguing that none of the allegations in the complaint state a claim
within our subject-matter jurisdiction. Def.’s Mot. to Dismiss, at 1 (citing, inter
alia, 28 U.S.C. § 1491(a)(1)). Plaintiff did not respond to the motion to dismiss.
II. DISCUSSION
A. Standard of Review
Under RCFC 12(b)(1), this court must dismiss claims that do not fall within
its subject-matter jurisdiction. When considering a motion to dismiss a case for lack
of subject-matter jurisdiction, courts will accept as true all factual allegations the
non-movant made and draw all reasonable inferences in the light most favorable to
that party. See Scheuer v. Rhodes, 416 U.S. 232, 236 (1974); Airport Rd. Assocs.,
Ltd. v. United States, 866 F.3d 1346, 1351 (Fed. Cir. 2017) (quoting Pixton v. B & B
Plastics, Inc., 291 F.3d 1324, 1326 (Fed. Cir. 2002)) (stating that on a motion to
dismiss a case for lack of subject-matter jurisdiction, a court must “view the alleged
facts in the complaint as true, and if the facts reveal any reasonable basis upon
which the non-movant may prevail, dismissal is inappropriate”); CBY Design
Builders v. United States, 105 Fed. Cl. 303, 325 (2012).
While a pro se plaintiffs filings are to be liberally construed, see Erickson v.
Pardus, 551 U.S. 89, 94 (2007), this lenient standard cannot spare from dismissal
claims which fall outside this court’s jurisdiction. See, e.g., Henke v. United States,
60 F.3d 795, 799 (Fed. Cir. 1995). It is incumbent on the plaintiff to properly invoke
the court’s jurisdiction by properly alleging a breach of contract by the federal
government or identifying a money-mandating law which was allegedly violated by
the government. See United States v. Mitchell, 463 U.S. 206, 216-17 (1983). A
plaintiff’s pro se status does not relieve him of the obligation to demonstrate
jurisdiction by a preponderance of the evidence. See McNutt u. Gen. Motors
Acceptance Corp. oflnd., 298 U.S. 178, 189 (1936) (explaining the plaintiff’s
responsibility for showing that the claim falls within the court’s jurisdiction);
Henke, 60 F.3d at 799 (noting that a plaintiff’s status does not excuse defects in the
complaint); Reynolds v. Army & Air Force Exch. Seru., 846 F.2d 746, 748 (Fed. Cir.
1988) (stating that the burden of proof for establishing jurisdiction is by a
preponderance of the evidence).
B. Analysis
The complaint fails to articulate any claim within this court’s subject-matter
jurisdiction. It seems that, at most, one USPS office refused to accept some of Mr.
Allen’s letters for mailing, which resulted in his mailing them less than thirty
-2-

Ii

|

I

i

|

l

Case l:19-cv-01304-VJW Document 6 Filed 02/28/20 Page 3 of 3

minutes later at different office. Compl. at 1. The Court is not aware of any legal
theory that could support recovery under these facts. Plaintiff has failed to allege
either the existence of a contract with the United States or the violation of a money­
mandating provision of federal law, which are generally the requirements to
establish a claim within our jurisdiction. See 28 U.S.C. § 1491(a); Mitchell, 463
U.S. at 216-17. Plaintiff has not identified any contractual right, or federal law or
regulation, which would entitle him to money damages for the inconvenience of
having to take his mail to a second USPS office before it could be mailed.
Although it is not clear, in the portion of his complaint relating to the relief
sought, plaintiff seems to suggest that he has filed a bid protest case. See Compl. at
3. Under 28 U.S.C. § 1491(b), our court is empowered to hear certain cases
objecting to the conduct of government procurements, such as claims that a
solicitation for offers is improper or that the government made an arbitrary or
unlawful contract award. See 28 U.S.C. § 1491(b). This includes cases involving
“any alleged violation of statute or regulation in connection with a procurement or a
proposed procurement.” Id. While the scope of this jurisdiction may be very broad,
it is nonetheless limited to federal procurements, which means the federal
government’s “process of acquiring property or services.” Distributed Sols., Inc. u.
United States, 539 F.3d 1340, 1345 (Fed. Cir. 2008) (quoting what was then 41
U.S.C. § 403(2) and is now 41 U.S.C. § 111). As Mr. Allen’s matter does not involve
an attempt by the government to obtain services, but rather his attempt to obtain
services from the government, it obviously cannot come within our bid protest
jurisdiction. Moreover, even as a bid protest, it would suffer from the defect placing
the case outside our general subject-matter jurisdiction—Mr. Allen’s failure to
identify any statute or regulation that may have been violated in his unsatisfactory
encounter with the one USPS office.
III. CONCLUSION
For the reasons stated above, the government’s motion to dismiss this case
for lack of subject-matter jurisdiction, under RCFC 12(b)(1), is GRANTED. The
Clerk shall close the case.
IT IS SO ORDERED.

z
VICTpR'j. WOL^KI
Senior Judge
/

s
-3-

Case l:19-cv-01304-VJW Document 7 Filed 02/28/20 Page 1 of 1

In tfjt ®nttcb :§>tate# Court of jfebtral Claim#
No. 19-1304 C
Filed: February 28, 2020
WALTER L. ALLEN
v.
JUDGMENT
UNITED STATES

Pursuant to the court’s Memorandum Opinion and Order, filed February 28, 2020,
granting defendant’s motion to dismiss,
IT IS ORDERED AND ADJUDGED this date, pursuant to Rule 58, that plaintiffs
complaint is dismissed for lack of subject-matter jurisdiction.

Lisa L. Reyes
Clerk of Court
By:

L. SMnler
Deputy Clerk

NOTE: As to appeal to the United States Court of Appeals for the Federal Circuit, 60 days from
this date, see RCFC 58.1, re number of copies and listing of all plaintiffs. Filing fee is $505.00.

%!

■

-

is

QSniteti States Court of Appeals;
for tfje Jfeberal Circuit
WALTER L. ALLEN,
Plaintiff-Appellant,
v.
UNITED STATES,
Defendant-Appellee

2020-1578
Appeal from the United States Court of Federal Claims
in No. l:19-cv-01304-VJW, Senior Judge Victor J. Wolski.

MANDATE
In accordance with the judgment of this Court, entered
August 5, 2020, and pursuant to Rule 41 of the Federal
Rules of Appellate Procedure, the formal mandate is
hereby issued.

FOR THE COURT
November 9, 2020

Is/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

Case: 20-1578

Document: 23

Page: 1

Filed: 11/02/2020

NOTE: This order is nonprecedential.

QUmteti States Court of Appeals:
for tfje jfcberal Ctrcutf
WALTER L. ALLEN,
Plaintiff-Appellant
v.
UNITED STATES,
Defendant-Appellee
2020-1578
Appeal from the United States Court of Federal Claims
in No. l:19-cv-01304-VJW, Senior Judge Victor J. Wolski.
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
Before PROST, Chief Judge, NEWMAN, LOURIE, BRYSON*,
Dyk, Moore, O’Malley, Reyna, Wallach, Taranto,
Chen, Hughes, and Stoll, Circuit Judges.
Per Curiam.

* Circuit Judge Bryson participated only in the decision
on the petition for panel rehearing.

Case: 20-1578

Document: 23

Page: 2

Filed: 11/02/2020

ALLEN v. UNITED STATES

2

ORDER
Appellant Walter L. Allen filed a combined petition for
panel rehearing and rehearing en banc. The petition was
referred to the panel that heard the appeal, and thereafter
the petition for rehearing en banc was referred to the cir­
cuit judges who are in regular active service.
Upon consideration thereof,
It Is Ordered That:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on November 9,
2020.

For the Court
November 2. 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

Case: 20-1821

Document: 24

Page: 1

Filed: 08/04/2020

NOTE: This order is nonprecedential.

QHntteb States Court of Uppeate
for tf>e jfeberal Circuit
WALTER L. ALLEN,
Plaintiff-Appellant
v.
UNITED STATES,
Defendant-Appellee
2020-1821
Appeal from the United States Court of Federal
Claims in No. l:19-cv-01305-PEC, Judge Patricia E.
Campbell-Smith.

Before O’MALLEY, BRYSON, and TARANTO, Circuit Judges.
Per Curiam.
ORDER
Having received the parties’ responses to this court’s
show cause order, we consider whether Walter L. Allen’s
appeal must be dismissed as untimely.
On September 12, 2019, the United States Court of
Federal Claims entered judgment dismissing Mr. Allen’s
complaint for lack of jurisdiction. The Court of Federal

Case: 20-1821

Document: 24

Page: 2

Filed: 08/04/2020

2

ALLEN v. US

Claims received Mr. Allen’s notice of appeal on May 13,
2020, eight months after the date of judgment.
To be timely, a notice of appeal must be filed with the
Court of Federal Claims within 60 days of the entry of
judgment. 28 U.S.C. § 2522; 28 U.S.C. § 2107(b)(1); Fed.
R. App. P. 4(a)(l)(B)(i). The statutory deadline for taking
an appeal from the Court of Federal Claims is “mandatory
and jurisdictional.”
Sofarelli Assocs., Inc. v. United
States, 716 F.2d 1395, 1396 (Fed. Cir. 1983) (internal
quotation marks and citations omitted); see also Bowles v.
Russell, 551 U.S. 205, 209 (2007). This means that the
court has no authority to create equitable exceptions for
untimely notices of appeal. Bowles, 551 U.S. at 214.
Because this court did not receive the appeal within 60
days of the entry of judgment, we must dismiss for lack of
jurisdiction.
Accordingly,
It Is Ordered That:
(1) The appeal is dismissed.
(2) Each party shall bear its own costs.
For the Court
August 04. 2020
Date
s35

Is/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

r
■ T! V

■»?

3n tf)p BBmteb ibtate# Court of jfeberal Clatm#
No. 19-1305C
(Filed: September 11, 2019)
NOT FOR PUBLICATION
)
)
)
) •

WALTER L. ALLEN,
Plaintiff,

)
)
)
)
)
)

*rr-

V.

THE UNITED STATES,
Defendant.

Pro-Se-Cornplaint; Sua SponteDismissal for Want Of
Jurisdiction; RCFC 12(h)(3);
Injunction Against the Filing of
New Complaints without Leave of '
the Chief Judge.

ORDER
A
The complaint of pro se plaintiff Walter Allen, ECF No. 1, is currently before the
court. Because the court lacks jurisdiction over plaintiffs claim, the court must dismiss
this case pursuant to Rule 12(h)(3) of the Rules of the United States Court of Federal
Claims (RCFC). See RCFC 12(h)(3) (“If the court determines at any time that it lacks
subject-matter jurisdiction, the court must dismiss the action.”).
I.

Background

dispute only).” ECF No. 1 at 1. The complaint references the fact that plaintiff was
arrested, id., then “Detained and Bail[ed] out,” id. at 2. One of the attachments to the
complaint is the record of the arraignment of Mr. Allen, which shows that the “DVI”
charge was later dismissed. ECF No. 1-1 at 1.
Mr. Allen, on the civil cover sheet attached to his complaint, describes the nature
of his suit as one sounding in Unjust Conviction and Imprisonment. ECF No. 1-2 at 1.
The amount claimed in this suit is “100,000,000,000,000,000.00,” or “one hundred
million zillion dollars.” IL There is no indication, however, that there was any
conviction that might support such a claim. See ECF No. 1 at 1 (“Court Appearances
Disposition Dismissed.”). Nor is there any indication that a federal criminal statute or

—*>

federal officials were involved in either the arrest of or adjudicative proceedings for Mr.
Allen as to the incident described in the complaint.
II.

Analysis

,

There are at least two impediments to this court’s jurisdiction over plaintiff s
unjust conviction and imprisonment claim. First, such a claim, to be within the
jurisdiction of this court, must be founded on a conviction for a federal crime. 28 U.S.C.
§ 1495 (2012). There is no such allegation in the complaint. Second, the conviction for a
federal crime must have been reversed or set aside. 28 U.S.C. § 2513 (2012). Again,
there is no such allegation in the complaint. Without these two prerequisites to suit, an
unjust conviction claim filed in this court must be dismissed for lack of jurisdiction. See,
e.g., Salman v. United States, 69 Fed. Cl. 36, 39 (2005) (citations omitted).
—;r

1

III.

Conclusion

The court does not possess subject matter jurisdiction over this suit and this case
must be dismissed. The court notes, too, that this is plaintiffs second complaint assigned
to the undersigned judge. See Allen v. United States, Case No. 19-1272C. In addition to
the cases assigned to the undersigned judge, Mr. Allen has filed eight other cases in this
court since May 23, 2019. See Allen v. United States, Case Nos. 19-791C, 19-1123C,
19-1151C, 19-1171C, 19-1260C, 19-1302C, 19-1303C, and 19-1304C. To date, four of
A these cases have been dismissed for lack of jurisdiction. See Allen v. United States, Case
Nos. 19-791C, 19-1151C, 19-1260C and 19-1272C. The filing of ten complaints by Mr.
Allen in less than four months, as evidenced by the dismissal of half of the suits, shows
that these suits are filed without any consideration of the jurisdiction of this court. This is
a repetitive and frivolous filing pattern which consumes valuable judicial resources.
Accordingly,
(1)
r'-*5

The clerk’s office is directed to ENTER judgment for defendant
JTpiamtiff'^compIaiiTtTor4mck'-ofsubjectTiiatter-jui4sdi-ctiOn7'with.cm't-

prejudice, pursuant to RCFC 12(h)(3);
(2)
The clerk’s office is directed to RETURN any future filings not in­
compliance with this court’s rules to plaintiff, UNFILED, without further order of the
court, except for any notice of appeal; and
Because plaintiff has repetitively filed complaints which needlessly
(3)
consume the resources of the court, the court enters the following anti-filing injunction:
Mr. Allen is immediately ENJOINED from filing any new
complaints with this Court without first obtaining leave from the
Chief Judge of the United States Court of Federal Claims to do so.
2

1F

Any motion for leave to file must include as an attachment a full
complaint that meets all of the requirements of RCFC 8; in particular
the complaint must identify the source of law supporting this court’s
jurisdiction over the claims asserted. Thus, the clerk’s office is
directed to REJECT all future complaints from Mr. Allen unless filed
by leave of the Chief Judge.
IT IS SO ORDERED.

fU'
Patricia e. campbell-smth
Judge

k.

3

Case l:19-cv-01305-PEC Document 5 Filed 09/12/19 Page 1 of 1

In t\)t

Matt# Court of tftbtml Claims?
No. 19-1305 C
(Filed: September 12,2019)

WALTER ALLEN
Plaintiff
v

JUDGMENT

THE UNITED STATES
Defendant

Pursuant to the court’s Order, filed September 11,2019,
IT IS ORDERED AND ADJUDGED this date, pursuant to Rule 58, that plaintiffs
complaint is dismissed without prejudice for lack of subject-matter jurisdiction.

Lisa L. Reyes
Clerk of Court
By:

At
Deputy Clerk

NOTE: As to appeal to the United States Court of Appeals for the Federal Circuit, 60 days from
this date, see RCFC 58.1, re number of copies and listing of all plaintiffs. Filing fee is $505.00.

®ruteb States Court of appeals!
for tfje jfeberal Circuit
WALTER L. ALLEN,
Pla i n t iff-Appellant
v.
UNITED STATES,
Defendant-Appellee
2020-1821
Appeal from the United States Court of Federal Claims
in No. l:19-cv-01305-PEC, Judge Patricia E. CampbellSmith.

MANDATE
In accordance with the judgment of this Court, entered
August 4, 2020, and pursuant to Rule 41 of the Federal
Rules of Appellate Procedure, the formal mandate is
hereby issued.

FOR THE COURT
September 25. 2020

Is/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

/

Case: 20-1945

Document: 23

Page: 1

Filed: 09/30/2020

NOTE: This order is nonprecedential.

fHniteb States Court of Appeals:
for tfje jfeberal Circuit
WALTER L. ALLEN,
Plaintiff-Appellant
v.
UNITED STATES,
Defendant-Appellee
2020-1945
Appeal from the United States Court of Federal Claims
in No. l:19-cv-01303-MBH, Senior Judge Marian Blank
Horn.
Before REYNA, WALLACH, and CHEN, Circuit Judges.
Per Curiam.
ORDER
Upon consideration of the parties’ responses to the
court’s July 21, 2020 order to show cause, the court dis­
misses this appeal as untimely.
On October 22, 2019, the United States Court of Fed­
eral Claims issued an order dismissing Walter L. Allen’s
complaint. The Court of Federal Claims entered judgment
the same day. Mr. Allen’s notice of appeal was received by
the Court of Federal Claims on June 1, 2020.

Case: 20-1945

Document: 23

Page: 2

Filed: 09/30/2020

ALLEN v. US

2

An appeal from a judgment of the Court of Federal
Claims must be filed within 60 days after judgment. See
28 U.S.C. § 2522; Fed. R. App. P. 4. The time period for
filing a notice of appeal from a judgment of the Court of
Federal Claims is “mandatory and jurisdictional,” Sofarelli
Assocs., Inc. v. United States, 716 F.2d 1395, 1396 (Fed.
Cir. 1983) (internal quotation marks and citations omit­
ted), and we have “no authority to create equitable excep­
tions to jurisdictional requirements,” Bowles v. Russell, 551
U.S. 205, 214 (2007). Because Mr. Allen’s notice of appeal
was not timely filed, we must dismiss.
Accordingly,
It Is Ordered That:
(1) The appeal is dismissed.
(2) Each side shall bear its own costs.
(3) All pending motions are denied as moot.
For the Court
September 30, 2020
Date

s31

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

Case l:19-cv-01303-MBH

i
i

Document 5 Filed 10/22/19 Page 1 of 9

!
5

\

I

3fn tJjc tHniteti States! Court of Jfebaal Claims!
No. 19-1303C
Filed: October 22, 2019
*
*
*
*

WALTER ALLEN J
Plaintiff,

* Pro Se Plaintiff; Subject-Matter
* Jurisdiction; Frivolous Complaint;
* Sanctions.

v.
UNITED STATES,
Defendant.
*

fc^********* *******

*
*
*
*

Walter Allen, pro se, Brooklyn, NY.
Sosun Bae, Attorney of Record, Commercial Litigation Branch, Civil Division,
United States Department of Justice, Washington, D.C., for defendant. With her was
Robert E. Kirschman, Jr., Director, Commercial Litigation Branch, Civil Division, and
Joseph H. Hunt, Assistant Attorney General, Commercial Litigation Branch, Civil
Division.

i

I

si
ORDER
i

.

I

HORN. J.
On August 27, 2019, pro se plaintiff Walter Allen filed a handwritten complaint in
the United States Court of Federal Claims. Plaintiff’s writing is difficult to decipher and his
allegations are difficult to follow, but it appears that in his complaint before this court,
plaintiff is alleging that two of his applications to change his federal income tax withholding
amounts were not acted upon by the New York City Employees’ Retirement System
(NYCERS). Plaintiff begins his complaint: “All Related to unlimited Jurisdiction with =
Distribution for me-plaintiff and Authorities. Plused unlimited court hearings and my cAse
heard.”1 Plaintiff attached to his complaint two NYCERS Federal Income Tax Withholding
Change applications (Form F-349), the first dated December 12, 2015 and the second
dated May 3, 2016. On each application, plaintiff handwrote a request to withhold
1

Capitalization, grammar, punctuation, abbreviations, spelling, emphasis, and choice of
words when quoted in this Order are as they originally appear in plaintiffs submissions to
this court.

i
i
!
|

iS

7016 0040 0001 13=13 E430

!;it
• i

Case l:19-cv-01303-MBH Document 5 Filed 10/22/19 Page 2 of 9

‘‘$900,000,000,000,000.00 *nine hundred trillions dollars*” of federal income tax from his
pension payments under part 4 “Additional Amount to Withhold Per Month.” Plaintiff
submitted two typed letters on letterhead with the NYCERS name, dated December 17,
2015 and May 5, 2016 respectively, which stated that plaintiff’s applications had been
“successfully processed.” Plaintiff states in his complaint that he sent “Email complaints”
that were “Approved” with a “CASEWORK # 904009.” Plaintiff does not state to whom the
“Email complaints" were sent and no email correspondence or evidence of further
correspondence was submitted to this court with plaintiff’s complaint. Moreover, it is not
clear from the plaintiff’s complaint, or the documents submitted with the complaint, what
documents were “Approved” or the meaning of “successfully processed” as used by the
NYCERS in the letters attached to plaintiff’s complaint. Plaintiff requests from this court
that the amount listed in part 4 of his Form F-349 applications, nine hundred trillion dollars,
“be Approved claimed,” as well as “one hundred million zillion dollars” awarded to him for
what the court can decipher from plaintiff’s handwriting is alleged to be “True Complaint
Info.” Plaintiff also requests from the court that “All Employees Involved with Ignoring
Section (4) Amt. Terminated for discourtesy and discredit while performing his/her duties.”
DISCUSSION
The court recognizes that plaintiff is proceeding pro se. When determining whether
a complaint filed by a pro se plaintiff is sufficient to invoke review by a court, a pro se
plaintiff is entitled to a more liberal construction of the pro se plaintiff’s pleadings. See
Haines v. Kerner. 404 U.S. 519, 520-21 (requiring that allegations contained in a pro se
complaint be held to “less stringent standards than formal pleadings drafted by lawyers”),
reh'q denied. 405 U.S. 948 (1972); see also Erickson v, Pardus. 551 U.S. 89, 94 (2007);
Hughes v. Rowe. 449 U.S. 5, 9-10 (1980); Estelle v. Gamble. 429 U.S. 97, 106 (1976),
reh’q denied. 429 U.S. 1066 (1977); Matthews v. United States. 750 F.3d 1320, 1322
(Fed. Cir. 2014); Jackson v. United States. 143 Fed. Cl. 242, 245 (2019); Diamond v.
United States. 115 Fed. Cl. 516, 524 (2014), aff£, 603 F. App’x 947 (Fed. Cir.), cert.
denied. 135 S. Ct. 1909 (2015). However, “there is no ‘duty [on the part] of the trial court
. . . to create a claim which [plaintiff] has not spelled out in his [or her] pleading . . . .’”
Lenqen v. United States. 100 Fed. Cl. 317, 328 (2011) (alterations in original) (quoting
Scogin v. United States. 33 Fed. Cl. 285, 293 (1995) (quoting Clark v. Nat’l Travelers Life
Ins. Co.. 518 F.2d 1167, 1169 (6th Cir. 1975))): see also Bussie v. United States, 96 Fed.
Cl. 89, 94, affd, 443 F. App’x 542 (Fed. Cir. 2011); Minehan v. United States. 75 Fed. Cl.
249, 253 (2007). “While a pro se plaintiff is held to a less stringent standard than that of
a plaintiff represented by an attorney, the pro se plaintiff, nevertheless, bears the burden
of establishing the Court’s jurisdiction by a preponderance of the evidence.” Riles v.
United States. 93 Fed. Cl. 163, 165 (2010) (citing Hughes v. Rowe. 449 U.S. at 9; and
Taylor v. United States. 303 F.3d 1357, 1359 (Fed. Cir.), reh’g and reh’g en banc denied
(Fed. Cir. 2002)); see also Kelley v. Secretary, U.S. Dep’t of Labor. 812 F.2d 1378, 1380
(Fed. Cir. 1987) ("[A] court may not similarly take a liberal view of [] jurisdictional
requirements] and set a different rule for pro se litigants only.”).2 Hale v. United States.
2 Several recent, though unpublished, cases in the United States Court of Appeals for
the Federal Circuit have cited Kelley v. Secretary, U.S. Dep’t of Labor for the proposition
2

!

Case l:19-cv-01303-MBH Document 5 Filed 10/22/19 Page 3 of 9

143 Fed. Cl. 180, 184 (2019) (“[E]ven pro se plaintiffs must persuade the court that
jurisdictional requirements have been met.” (citing Bernard v. United States, 59 Fed. Cl.
497, 499, affd, 98 F. App’x 860 (Fed. Cir. 2004))); Golden v. United States. 129 Fed. Cl.
630, 637 (2016); Shelkofskv v. United States. 119 Fed. Cl. 133, 139 (2014) (“[Wjhile the
court may excuse ambiguities in a pro se plaintiffs complaint, the court ‘does not excuse
[a complaint’s] failures.’” (quoting Henke v. United States. 60 F.3d 795, 799 (Fed. Cir.
1995))); Harris v. United States. 113 Fed. Cl. 290, 292 (2013) (“Although plaintiff’s
pleadings are held to a less stringent standard, such leniency ‘with respect to mere
formalities does not relieve the burden to meet jurisdictional requirements.”' (quoting
Minehan v. United States. 75 Fed. Cl. at 253)).
“Subject-matter jurisdiction may be challenged at any time by the parties or by the
court sua sponte.” Folden v. United States. 379 F.3d 1344, 1354 (Fed. Cir. 2004) (citing
Fanning, Phillips & Molnar v. West, 160 F.3d 717, 720 (Fed. Cir. 1998)), reh’g and reh’g
en banc denied (Fed. Cir. 2004), cert, denied. 545 U.S. 1127 (2005); see also St. Bernard
Parish Gov’t v. United States. 916 F.3d 987, 992-93 (Fed. Cir. 2019) (“[T]he court must
address jurisdictional issues, even sua sponte. whenever those issues come to the court’s
attention, whether raised by a party or not, and even if the parties affirmatively urge the
court to exercise jurisdiction over the case.” (citing Foster v. Chatman. 136 S. Ct. 1737,
1745 (2016)); Int’l Elec. Tech. Corn, v. Hughes Aircraft Co.. 476 F.3d 1329, 1330 (Fed.
Cir. 2007). The Tucker Act, 28 U.S.C. § 1491 (2018), grants jurisdiction to this court as
follows:
The United States Court of Federal Claims shall have jurisdiction to render
judgment upon any claim against the United States founded either upon the
Constitution, or any Act of Congress or any regulation of an executive
department, or upon any express or implied contract with the United States,
or for liquidated or unliquidated damages in cases not sounding in tort.
28 U.S.C. § 1491(a)(1). As interpreted by the United States Supreme Court, the Tucker
Act waives sovereign immunity to allow jurisdiction over claims against the United States
(1) founded on an express or implied contract with the United States, (2) seeking a refund
from a prior payment made to the government, or (3) based on federal constitutional,
statutory, or regulatory law mandating compensation by the federal government for
damages sustained. See United States v. Navajo Nation. 556 U.S. 287, 289-90 (2009);
see also United States v. Mitchell. 463 U.S. 206, 216 (1983); Alvarado Hosp., LLC v.
Price. 868 F.3d 983, 991 (Fed. Cir. 2017); Greenlee Cntv.. Ariz. v. United States. 487
F.3d 871, 875 (Fed. Cir.), reh’g and reh’g en banc denied (Fed. Cir. 2007), cert, denied,
552 U.S. 1142 (2008); Palmer v. United States. 168 F.3d 1310, 1314 (Fed. Cir. 1999).
"Not every claim invoking the Constitution, a federal statute, or a regulation is cognizable
under the Tucker Act. The claim must be one for money damages against the United
States . . . .” United States v. Mitchell. 463 U.S. at 216; see also United States v. White
that pro se litigants are not relieved of the requirement to prove that their claims fall
within the jurisdiction of the court. 812 F.2d 1378, 1380 (Fed. Cir, 1987). See Curry v.
United States. No. 2019-1486, 2019 WL 4927020, at *2 (Fed. Cir. Oct. 7, 2019); RojasVeoa v. United States. No. 2019-1475, 2019 WL 3731313, at *2, n. 3 (Fed. Cir. Aug. 8,
2019); Stekelman v. United States. 752 F. App’x 1008, 1010 (Fed. Cir. 2018).
3

Case l:19-cv-01303-MBH Document 5 Filed 10/22/19 Page 4 of 9

Mountain Apache Tribe, 537 U,S. 465, 472 (2003); N.Y. & Presbyterian Hosp. v. United
States. 881 F.3d 877, 881 (Fed. Cir. 2018); Smith v. United States. 709 F.3d 1114, 1116
(Fed. Cir.), cert, denied. 571 U.S. 945 (2013); RadioShack Corp. v. United States. 566
F.3d 1358, 1360 (Fed. Cir. 2009); Rick’s Mushroom Serv., Inc, v. United States. 521 F.3d
1338, 1343 (Fed. Cir. 2008) (“[P]laintiff must. .. identify a substantive source of law that
creates the right to recovery of money damages against the United States.”); Jackson v.
United States. 143 Fed. Cl. at 245. In Ontario Power Generation. Inc, v. United States,
the United States Court of Appeals for the Federal Circuit identified three types of
monetary claims for which jurisdiction is lodged in the United States Court of Federal
Claims. The Ontario Power Generation, Inc, court wrote:
The underlying monetary claims are of three types.... First, claims alleging
the existence of a contract between the plaintiff and the government fall
within the Tucker Act’s waiver .... Second, the Tucker Act’s waiver
encompasses claims where “the plaintiff has paid money over to the
Government, directly or in effect, and seeks return of all or part of that sum.”
Eastport S.S. fCorp. v. United States. 178 Ct. Cl. 599, 605-06,] 372 F.2d
[1002,] 1007-08 [(1967)] (describing illegal exaction claims as claims "in
which 'the Government has the citizen’s money in its pocket’” (quoting
Clapp v. United States. 127 Ct. Cl. 505,117 F. Supp. 576, 580 (1954))....
Third, the Court of Federal Claims has jurisdiction over those claims where
"money has not been paid but the plaintiff asserts that he is nevertheless
entitled to a payment from the treasury.” Eastport S.S.. 372 F.2d at 1007.
Claims in this third category, where no payment has been made to the
government, either directly or in effect, require that the “particular provision
of law relied upon grants the claimant, expressly or by implication, a right to
be paid a certain sum.” ]cL; see also [United States v. ITestan. 424 U.S.
[392,] 401-02 [(1976)] (“Where the United States is the defendant and the
plaintiff is not suing for money improperly exacted or retained, the basis of
the federal claim-whether it be the Constitution, a statute, or a regulationdoes not create a cause of action for money damages unless, as the Court
of Claims has stated, that basis ‘in itself. . . can fairly be interpreted as
mandating compensation by the Federal Government for the damage
sustained.’” (quoting Eastport S.S., 372 F.2d at 1009)). This category is
commonly referred to as claims brought under a “money-mandating”
statute.
Ont. Power Generation. Inc, v. United States, 369 F.3d 1298, 1301 (Fed. Cir. 2004); see
also Samish Indian Nation v. United States. 419 F.3d 1355, 1364 (Fed. Cir. 2005); Twp.
of Saddle Brook v. United States. 104 Fed. Cl. 101, 106 (2012).
To prove that a statute or regulation is money-mandating, a plaintiff must
demonstrate that an independent source of substantive law relied upon “'can fairly be
interpreted as mandating compensation by the Federal Government.’” United States v.
Navajo Nation. 556 U.S. at 290 (quoting United States v. Testan. 424 U.S. at 400); see
also United States v. White Mountain Apache Tribe, 537 U.S. at 472; United States v.
Mitchell. 463 U.S. at 217; Blueport Co.. LLC v. United States. 533 F.3d 1374, 1383 (Fed.
Cir. 2008). cert, denied. 555 U.S. 1153 (2009). The source of law granting monetary relief
4

Case l:19-cv-01303-MBH Document 5 Filed 10/22/19 Page 5 of 9

must be distinct from the Tucker Act itself. See United States v. Navajo Nation. 556 U.S.
at 290 (The Tucker Act does not create "substantive rights; [it is simply a] jurisdictional
provision[] that operate[s] to waive sovereign immunity for claims premised on other
sources of law (e.g., statutes or contracts).”). “‘If the statute is not money-mandating, the
Court of Federal Claims lacks jurisdiction, and the dismissal should be for lack of subject
matter jurisdiction.’” Jan’s Helicopter Serv., Inc, v. Fed. Aviation Admin., 525 F.3d 1299,
1308 (Fed. Cir. 2008) (quoting Greenlee Cntv.. Ariz. v. United States, 487 F.3d at 876);
see also N.Y. & Presbyterian Hosp. v. United States. 881 F.3d at 881; Fisher v. United
States. 402 F.3d at 1173 (noting that the absence of a money-mandating source is "fatal
to the court’s jurisdiction under the Tucker Act”); Jackson v. United States, 143 Fed. Cl.
at 245 ("If the claim is not based on a ‘money-mandating’ source of law, then it lies beyond
the jurisdiction of this Court.” (citing Metz v. United States, 466 F.3d 991, 997 (Fed. Cir.
2006)).
“Determination of jurisdiction starts with the complaint, which must be well-pleaded
in that it must state the necessary elements of the plaintiff's claim, independent of any
defense that may be interposed.” Hollev v. United States. 124 F.3d 1462,1465 (Fed. Cir.)
(citing Franchise Tax Bd. v. Constr. Laborers Vacation Trust. 463 U.S. 1, 9-10 (1983)),
reh’q denied (Fed. Cir. 1997); see also Klamath Tribe Claims Comm, v. United States, 97
Fed. Cl. 203, 208 (2011); Gonzalez-McCaullev Inv. Grp.. Inc, v. United States. 93 Fed.
Cl. 710, 713 (2010). A plaintiff need only state in the complaint “a short and plain
statement of the grounds for the court’s jurisdiction,” and “a short and plain statement of
the claim showing that the pleader is entitled to relief.” RCFC 8(a)(1), (2) (2019); Fed. R.
Civ. P. 8(a)(1), (2) (2019); see also Ashcroft v. Iqbal. 556 U.S. 662, 677-78 (2009) (citing
Bell Atl. Corn, v. Twomblv, 550 U.S. 544, 555-57, 570 (2007)). To properly state a claim
for relief, "[cjonclusory allegations of law and unwarranted inferences of fact do not suffice
to support a claim.” Bradley v. Chiron Corp., 136 F.3d 1317, 1322 (Fed. Cir. 1998); see
also McZeal v. Sprint Nextel Corp.. 501 F.3d 1354, 1363 n.9 (Fed. Cir. 2007) (Dyk, J.,
concurring in part, dissenting in part) (quoting C. Wright and A. Miller, Federal
Practice and Procedure § 1286 (3d ed. 2004)); “A plaintiff’s factual allegations must
‘raise a right to relief above the speculative level’ and cross ‘the line from conceivable to
plausible.’” Three S Consulting v. United States. 104 Fed. Cl. 510, 523 (2012) (quoting
Bell Atl. Corp. v. Twomblv. 550 U.S. at 555), aff’d, 562 F. App’x 964 (Fed. Cir.), reh’g
denied (Fed. Cir. 2014); see also Hale v. United States. 143 Fed. Cl. at 190. As stated in
Ashcroft v. Iqbal, “[a] pleading that offers ‘labels and conclusions' or 'a formulaic recitation
of the elements of a cause of action will not do.’ 550 U.S. at 555. Nor does a complaint
suffice if it tenders ‘naked assertions]' devoid of ‘further factual enhancement.”' Ashcroft
v. Iqbal. 556 U.S. at 678 (quoting Bell Atl. Corp. v. Twomblv. 550 U.S. at 555).
Even a liberal construction of plaintiff’s allegations that the NYCERS has
wrongfully ignored his Form F-349 applications and that this court has jurisdiction to grant
him unlimited hearings, order approval of his applications by the NYCERS, order the
termination of the NYCERS’ employees, and grant him damages of “the amt. I wrote in
section (4) 900,000.000.000.000.00 $ (nine hundred Trillion dollars)’’ as well as “one
hundred million zillion dollars” is entirely unavailing. Plaintiff has failed to make a plausible
“short and plain statement of the grounds for the court's jurisdiction,” and his statements
5

i

Case l:19-cv-01303-MBH Document 5 Filed 10/22/19 Page 6 of 9

do not rise to allegations of coherent issues which fall within the jurisdiction of this court.
In fact, plaintiffs complaint makes no mention of any statute or other basis for granting
relief. Plaintiff simply states: "I respectfully submit this complaint Related to (2) federal
Income Tax withholding change form 349 (Applications),” lists the date he alleges each
application was filed and processed by the NYCERS, and, without further explanation,
requests the relief previously mentioned. As noted above, a pro se plaintiff’s complaint is
afforded some degree of leniency by the court. Haines v. Kerner. 404 U.S. 519, 520-21
(1972) (finding that allegations of a pro se complaint are held to “less stringent standards
than formal pleadings drafted by lawyers .. . ."); see also Hughes v. Rowe, 449 U.S. at
9. However, “such leniency. . . ‘does not relieve the burden to meet jurisdictional
requirements.’” Harris v. United States, 113 Fed. Cl. at 292 (quoting Minehan v. United
States. 75 Fed. Cl. at 253). As discussed below, plaintiff’s brief statement of grievances
against the NYCERS and its employees does not fall within the court’s jurisdiction and,
therefore, must be dismissed. See Hopi Tribe v. United States. 782 F.3d 662, 671 (Fed.
Cir. 2015) (Finding that because plaintiff failed to state a claim within the jurisdiction of
the Court of Federal Claims, dismissal of the suit was proper.).
Addressing individual jurisdictional defects raised by plaintiffs complaint,
although the United States is the named defendant, the complaint does not mention or
implicate the United States government. Plaintiff’s allegation of inaction is specifically
directed at the NYCERS, a state agency created by and acting pursuant to New York’s
Retirement and Social Security Law, and the NYCERS’ employees. See N.Y. Retire. &
Soc. Sec. Law § 10 (McKinney 2019). It is well established that this court lacks
jurisdiction to hear claims against state agencies or individuals. See United States v.
Sherwood. 312 U.S. 584, 588 (1941) (noting that “if the relief sought is against others
than the United States the suit as to them must be ignored as beyond the jurisdiction of
the court [United States Court of Claims]” (citing United States v. Jones, 131 U.S. 1, 9
(18891: Lvnn v. United States. 110 F.2d 586, 588 (5th Cir. 1940): Leather & Leigh v.
United States. 61 Ct. Cl. 388 (1925))): see also Weir v. United States. 141 Fed. Cl. 169,
177 (2018) (“[T]his court lacks jurisdiction 'over any claims alleged against states,
localities, state and local government entities, or state and local government officials
and employees.”' (quoting Anderson v. United States. 117 Fed. Cl. 330, 331 (2014)));
Merriman v. United States. 128 Fed. Cl. 599, 602 (2016) (“The United States Court of
Federal Claims does not have subject matter jurisdiction over claims against private
individuals or state officials." (citing United States v. Sherwood, 312 U.S. at 588)); Hicks
v. United States. 118 Fed. Cl. 76, 81 (2014); Cottrell v. United States. 42 Fed. Cl. 144,
148 (1998).3 Therefore, the court controls that this court lacks subject matter jurisdiction
3 Although also in unpublished opinions, the United States Court of Appeals for the
Federal Circuit has held that under the Tucker Act, the United States Court of Federal
Claims does not have jurisdiction over individuals or state agencies as defendants. See
Jave v. United States. No. 2019-1458, 2019 WL 3564174, at *3 (Fed. Cir. Aug. 6, 2019)
(“To the extent [plaintiffs] complaint seeks relief against defendants other than the
United States, including state officials, state agencies, and other individuals, the Court
of Federal Claims lacks jurisdiction over those claims.” (citing Smith v. United States, 99
Fed. Cl. 581, 583 (2011))); Conner v. United States. 641 F. App’x 972, 975 (Fed. Cir.
2016) (“Under the Tucker Act, 'if the relief sought is against others than the United

6

Case l:19-cv-01303-MBH Document 5 Filed 10/22/19 Page 7 of 9

over plaintiffs claims against the New York state agency, the NYCERS, and such
claims must be dismissed.
The court also notes that in addition to ‘'100,000.000.000.000.000.00.$ one
hundred million zillion dollars for True Complaint Info . .plaintiff seeks “unlimited
court hearings . . . [and] the amt. I wrote in section (4) 900,000.000.000.000.00. $ (nine
hundred trillion dollars) be Approved claimed .... Plused All Employees Involved with
Ignoring Section (4) Amt. Terminated for discourtesy and discredit while performing
his/her duties." Inherent in every court is the power “to control the disposition of the
causes on its docket with economy of time and effort for itself, for counsel, and for
litigants.” Landis v. N. Am. Co.. 299 U.S. 248, 254 (1936). Therefore, trial judges are
given broad discretion to control and manage their dockets, including with respect to
procedural matters. See, e.g.. Amado v. Microsoft Corp.. 517 F.3d 1353, 1358 (Fed.
Cir. 2008) (citing Nolan v. de Baca. 603 F.2d 810, 812 (10th Cir. 1979), cert, denied.
446 U.S. 956 (1980)); Nutrinova Nutrition Specialties and Food Ingredients GMBH v.
Int’l Trade Comm’n, 224 F.3d 1356, 1360 (Fed. Cir. 2000); Remote Diagnostic Techs.
LLC v. United States. 133 Fed. Cl. 198, 203 (2017). “[T]he parties’ right to be heard
may be fulfilled by the court’s review of the briefs and supporting affidavits and materials
submitted to the court.” Geearv. Boulder Cmtv. Hosp.. 844 F.2d 764, 766 (10th Cir.),
cert, denied. 488 U.S. 927 (1988): see also Toouero v. I.N.S.. 956 F.2d 193, 196 n.4
(9th Cir. 1992) (“It is well-settled that oral argument is not necessary to satisfy due
process.”); Lake at Las Vegas Inv’rs Grp, v. Pac. Malibu Dev. Corp.. 933 F.2d 724, 729
(9th Cir.) (affirming and discussing the court’s interpretation of a local District Court rule,
finding no prejudicial error based on the denial of oral argument in a summary judgment
motion because the party “had the opportunity to apprise the district court of any
arguments it believed supported its position”), reh'g denied (9th Cir. 1991), cert, denied,
503 U.S. 920 (1992); Young v. United States. 94 Fed. Cl. 671,675 (2010) ("There is no
blanket due process right to oral argument.” (citing FCC v. WJR, The Goodwill Station.
337 U.S. 265, 276 (1949)). Therefore, a trial court is not required to hold a hearing, but
may do so if the court believes the hearing would assist the court to resolve the case.
The decision of whether or not to hold oral argument is made in each case, based on
the filings and issues raised in that particular case. After reviewing the allegations in the
complaint filed by plaintiff, the court finds no reason to hold even one hearing, let alone
the “unlimited court hearings” plaintiff seeks, because as discussed above, the court
lacks jurisdiction over plaintiff’s claims.
Finally, the court notes that plaintiff Walter Allen has filed nine other complaints
with this court alone since May 23, 2019. See Allen v. United States. Case Nos. 191305C, 19-1304C, 19-1302C, 19-1272C, 19-1260C, 19-1171C, 19-1151C, 19-1123C,
and 19-791C. To date, three of these complaints are still pending, and six have been
dismissed for lack of subject matter jurisdiction. See Allen v. United States. Case No. 191305C (Fed. Cl. Sept. 11, 2019) (finding the court lacked subject matter jurisdiction to
States the suit as to them must be ignored as beyond the jurisdiction of the [Court of
Federal Claims].’” (quoting United States v. Sherwood. 312 U.S. at 588)); see also May
v. United States. 534 F. App’x 930, 934 (Fed. Cir. 2013); Powell v. United States, 151 F.
App’x 938, 940 (2005).
7

Case l:19-cv-01303-MBH

Document 5 Filed 10/22/19 Page 8 of 9

hear plaintiff’s unjust conviction and imprisonment claim when his complaint failed to
mention conviction for a federal crime and that such a conviction had been reversed or
set aside); Allen v. United States. Case No. 19-1272C (Fed. Cl. Sept. 11, 2019) (finding
no subject matter jurisdiction over the plaintiffs verbal domestic violence claims where
there was "no comprehensible claim for monetary damages against the United States”);
Allen v. United States. Case No. 19-1302C, 2019 WL 4271999 (Fed. Cl. Sept. 10, 2019)
(finding that plaintiff failed to identify any federal statutes or money-mandating
constitutional violations in his complaint alleging discrimination by the United States
Department of Health and Human Services); Allen v. United States, Case No. 19-1260C,
2019 WL 4054018 (Fed. Cl. Aug. 28, 2019) (finding no claim made against the United
States under any money-mandating statute that would give the court jurisdiction to hear
plaintiffs domestic dispute claim); Allen v. United States. Case No. 19-1151C, 2019 WL
4054011 (Fed. Cl. Aug. 27, 2019) (finding the court lacked subject matter jurisdiction to
hear plaintiffs claim alleging discrimination and violation of access to public services by
the New York City Metropolitan Transportation Authority); Allen v. United States, Case
No. 19-791C, 2019 WL 2613171 (Fed. Cl. June 5, 2019) (finding the court lacked subject
matter jurisdiction to hear plaintiffs complaint requesting money damages and injunctive
relief for allegedly wrongful denial of his application for disability retirement by NYCERS),
appeal filed (Fed. Cir. June 6, 2019).
Finally, Rule 11 of the Rules of The United States Court of Federal Claims (RCFC)
2019 requires that, by filing a complaint in this court, the plaintiff represents that “the
claims, defenses, and other legal contentions are warranted by existing law or by a
nonfrivolous argument for extending, modifying, or reversing existing law or for the
establishment of new law.” RCFC 11(b)(3) (2019). RCFC 11 provides that the court may
“impose sanctions on parties who file frivolous lawsuits with no basis in fact or law.” Kissi
v. United States. 102 Fed. Cl. 31, 36 (2011), affd, 493 F. App’x 57 (Fed. Cir. 2012).4
RCFC 11 states that sanctions should be limited to what is “sufficient to deter repetition
of such conduct or comparable conduct by others similarly situated,” and permits the
imposition of nonmonetary sanctions.
In an order filed recently on September 11, 2019 in Allen v. United States, Case
No. 19-1305C (Fed. Cl. Sept. 11, 2019), Judge Campbell-Smith of this court issued an
anti-filing injunction barring the plaintiff, Walter Allen, from filing any new complaints with
this court without first obtaining leave from the Chief Judge of the United States Court of
Federal Claims “[bjecause plaintiff has repetitively filed complaints which needlessly
consume the resources of the court.. . .” Allen v. United States, Case No. 19-1305C
(Fed. Cl. Sept. 11,2019). As in Judge Campbell-Smith’s case, this court finds no plausible
or colorable claim within its jurisdiction in the case currently before this court, Case No.
19-1303C. Moreover, plaintiffs request for “the amt. I wrote in section (4)
900,000.000.000.000.00 $ (nine hundred Trillion dollars)” as well as “one hundred million
4 Although in an unpublished opinion, the United States Court of Appeals for the Federal
Circuit has recently affirmed the imposition of sanctions on E>ro se parties who file
frivolous claims. See O'Diah v. United States, 722 F. App’x 1001,1004 (Fed. Cir. 2018)
(”[W]e have previously imposed anti-filing sanctions where a pro se litigant has engaged
in repeated and frivolous lawsuits.”).
8

Case l:19-cv-01303-MBH Document 5 Filed 10/22/19 Page 9 of 9

zillion dollars” is unreasonable on its face. This court agrees that based on plaintiffs
litigation history and review of the case currently before this court, the appropriate
sanction is to bar plaintiff from filing any future complaints without first obtaining leave to
file from the Chief Judge of the United States Court of Federal Claims. This court,
therefore, instructs the Clerk of the Court to strictly enforce this policy and require the
referral of any cases filed by Mr. Walter Allen to the Chief Judge before any future cases
submitted by him are filed and placed on the docket of this court. See Bergman v. Dep't
of Comm., 3 F.3d 432, 435 (Fed. Cir. 1993) (barring the filing of future appeals by plaintiff
without judicial review and approval of the appeal after referral to a judge for screening);
Leffebre v. United States. 129 Fed. Cl. 48, 55 (2016) (“The Clerk is further directed to
accept no other actions or filings by [plaintiff] without an order from the Chief Judge of the
United States Court of Federal Claims.”); Aldridge v. United States, 67 Fed. Cl. 113, 124
(2005) ("Plaintiff is further ORDERED to cease filing any further action related to Plaintiffs
eviction from the Property in the United States Court of Federal Claims. The Clerk of the
Court is directed to accept no filing from Plaintiff, without an Order of the court approving
the filing.”) (emphasis in original); Hornback v. United States, 62 Fed, Cl. 1,6 (2004) (“To
prevent abuse of the judicial process by plaintiff,” the court barred future filings by plaintiff
“absent advance written permission by a judge of this court.”), affd, 405 F.3d 999 (Fed.
Cir.). reh'g en banc denied (2005); Anderson v. United States, 46 Fed. Cl. 725,731 (2000)
(“The clerk of the court is further directed not to file any pleadings or documents of any
kind, submitted by plaintiff in this court, without the advance written permission of a judge
from this court.”), affd, 4 F. App’x 871 (Fed. Cir.), cert, dismissed, 533 U.S. 926, reconsid.
denied. 534 U.S. 809 (2001).
CONCLUSION
For the reasons discussed above, plaintiffs complaint is DISMISSED, with
prejudice, for lack of subject matter jurisdiction. The Clerk of the Court shall enter
JUDGMENT consistent with this Order dismissing plaintiffs complaint and is further
directed to accept no future filings from this plaintiff without first obtaining leave from the
Chief Judge of the United States Court of Federal Claims.
IT IS SO ORDERED.
MARIAN BLANK HORN
Judge

9

Case l:19-cv-01303-MBH Document 6 Filed 10/22/19 Page 1 of 1

in tl)0 Umteb

Court of jfebetal Claims
No. 19-1303 C
Filed: October 22,2019

WALTER ALLEN

v.
JUDGMENT
UNITED STATES

Pursuant to the court’s Order, filed October 22,2019,
IT IS ORDERED AND ADJUDGED this date, pursuant to Rule 58, that plaintiffs
complaint is dismissed, with prejudice, for lack of subject-matter jurisdiction.

Lisa L. Reyes
Clerk of Court
By:
Deputy Clerk

NOTE: As to appeal to the United States Court of Appeals for the Federal Circuit, 60 days from
this date, see RCFC 58.1, re number of copies and listing of all plaintiffs. Filing fee is $505.00.

Case: 20-1945

Document: 8

Page: 1

Filed: 07/21/2020

NOTE: This order is nonprecedential.

®niteb States Court of Appeals
for tfje Jfe&erat Circuit
WALTER L. ALLEN,
Plaintiff-Appellant
v.
UNITED STATES,
Defendant-Appellee
2020-1945
Appeal from the United States Court of Federal Claims
in No. l:19-cv-01303-MBH, Senior Judge Marian Blank
Horn.
ON MOTION
Per Curiam.
ORDER
Walter L. Allen moves for leave to proceed in forma
pauperis. The court considers whether this appeal must be
dismissed as untimely.
On October 22, 2019, the United States Court of Fed­
eral Claims issued an order dismissing Mr. Allen’s com­
plaint. The Court of Federal Claims entered judgment the

